TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Fiscal Year 2007 Statutory Review of
                       Restrictions on Directly Contacting
                                   Taxpayers



                                           July 13, 2007


                              Reference Number: 2007-40-118




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     July 13, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Fiscal Year 2007 Statutory Review of Restrictions
                                 on Directly Contacting Taxpayers (Audit # 200740003)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with legal guidelines addressing the direct contact of taxpayers and their
 representatives, as set forth in Internal Revenue Code Sections (I.R.C. §§) 7521(b)(2) and (c).
 The Treasury Inspector General for Tax Administration was statutorily required to conduct this
 audit.

 Impact on the Taxpayer
 The Omnibus Taxpayer Bill of Rights1 created a number of safeguards to protect taxpayers being
 interviewed by an IRS employee as part of an examination or collection action. IRS employees
 are required to stop an interview if the taxpayer requests to consult with a representative and may
 not bypass a representative without supervisory approval. Neither the IRS nor we could readily
 identify cases in which the taxpayer requested a representative or the IRS improperly bypassed
 the representative. Of the limited number of complaints received related to this issue, there were
 none in which the facts of the case indicated the IRS employee did not comply with the
 taxpayer’s request to consult with a representative or improperly bypassed the representative.




 1
     Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
                      Fiscal Year 2007 Statutory Review of Restrictions on
                                 Directly Contacting Taxpayers




Synopsis
IRS employees are required by the direct contact provisions of I.R.C. §§ 7521(b)(2) and (c) to:
   •   Stop a taxpayer interview whenever a taxpayer requests to consult with a representative.
   •   Obtain their immediate supervisor’s approval to contact the taxpayer instead of the
       representative if the representative is responsible for unreasonably delaying the
       completion of an examination or collection action.
The IRS Internal Revenue Manual provides employees with guidance to help ensure compliance
with the direct contact provisions. In addition, the IRS has informed taxpayers of their rights
through various IRS publications. However, we could not determine whether the IRS complied
with I.R.C. §§ 7521(b)(2) and (c) requirements when directly contacting taxpayers and their
representatives. IRS management information systems do not separately record or monitor direct
contact requirements, and Congress has not explicitly required the IRS to do so. Furthermore,
we do not recommend the creation of a separate IRS system to track those cases involved with
direct contact issues. Accordingly, we made no recommendations in this report.

Response
Because this was a positive report and we made no specific recommendations, comments from
the IRS were not required.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                  2
                               Fiscal Year 2007 Statutory Review of Restrictions on
                                          Directly Contacting Taxpayers




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 2
          The Internal Revenue Manual Provides Employees Guidance to Help
          Ensure Compliance With the Direct Contact Provisions................................Page 2
          The Internal Revenue Service Has Informed Taxpayers of Their Rights
          Through Various Internal Revenue Service Publications...............................Page 3
          Compliance With Statutory Requirements for Restrictions on Directly
          Contacting Taxpayers Cannot Be Determined ...............................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 5
          Appendix II – Major Contributors to This Report ..........................................Page 7
          Appendix III – Report Distribution List .........................................................Page 8
           Fiscal Year 2007 Statutory Review of Restrictions on
                      Directly Contacting Taxpayers




                      Abbreviations

I.R.C. §        Internal Revenue Code Section
IRS             Internal Revenue Service
RRA 98          Restructuring and Reform Act of 1998
TIGTA           Treasury Inspector General for Tax Administration
                          Fiscal Year 2007 Statutory Review of Restrictions on
                                     Directly Contacting Taxpayers




                                            Background

The Omnibus Taxpayer Bill of Rights1 created a number of safeguards to protect taxpayers being
interviewed by an Internal Revenue Service (IRS) employee as part of an examination or
collection action. Specifically, IRS employees are required by the direct contact provisions of
Internal Revenue Code Sections (I.R.C. §§) 7521(b)(2) and (c) to:
    •   Stop a taxpayer interview whenever a taxpayer requests to consult with a representative.
    •   Obtain their immediate supervisor’s approval to contact the taxpayer instead of the
        representative if the representative is responsible for unreasonably delaying the
        completion of an examination or collection action.
A taxpayer can file a civil suit against the IRS if an IRS employee intentionally disregards these
provisions by denying a taxpayer the right to appropriate representation.
On July 22, 1998, the President signed into law the IRS Restructuring and Reform Act of 1998
(RRA 98),2 which required the IRS to revise Your Rights as a Taxpayer (Publication 1) to inform
taxpayers of their rights (1) to be represented at interviews and (2) to suspend an interview
pursuant to I.R.C. § 7521(b)(2). In addition, Congress added I.R.C. § 7803(d)(1)(A)(ii) to the
RRA 98, which requires the Treasury Inspector General
for Tax Administration (TIGTA) to annually evaluate the
                                                                      The TIGTA is required to
IRS’ compliance with the direct contact provisions.                  annually evaluate the IRS’
Senate Committee on Finance Report 105-174 (dated                   compliance with the direct
April 22, 1998) related to the RRA 98 § 3502 provision                 contact provisions of
stated that Congress believes taxpayers should be more              I.R.C. §§ 7521(b)(2) and (c).
fully informed of their rights to representation in dealing
with the IRS and those rights should be respected.
This review was performed in the IRS Headquarters and the National Taxpayer Advocate
function in Washington, D.C.; in the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland; and in the Wage and Investment Division Headquarters in
Atlanta, Georgia, during the period March through May 2007. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.


1
 Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
2
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                           Page 1
                       Fiscal Year 2007 Statutory Review of Restrictions on
                                  Directly Contacting Taxpayers




                                Results of Review

The Internal Revenue Manual Provides Employees Guidance to Help
Ensure Compliance With the Direct Contact Provisions
Following the enactment of the Omnibus Taxpayer Bill of Rights in 1988, the IRS began to
establish written procedures regarding taxpayer interviews for employees to follow and planned
to further enhance those procedures as needed. These initial procedures required employees not
only to meet the legal guidelines imposed by the direct contact provisions but also to document
the related actions in the taxpayer’s case file.
The enactment of RRA 98 contributed to the further enhancement of the procedures and
guidelines related to the direct contact issues. In response to prior TIGTA reports, the IRS took
several corrective actions to further improve the existing procedures and guidelines for directly
contacting taxpayers and their representatives.
In our Fiscal Year 1999 report, we recommended the IRS (1) complete its efforts to develop
national guidance to ensure consistent treatment of taxpayers and (2) develop a process to
determine whether employees are complying with the direct contact provisions. In response to
our first recommendation, the IRS updated its Internal Revenue Manual in 1999 and 2000 to
reflect:
   •   Procedures for handling situations in which a representative is authorized to represent the
       taxpayer on only 1 tax year, but the examination or collection interview covers more than
       1 year.
   •   Clarifying guidance to determine a reasonable time period for taxpayers to secure
       representation.
   •   Clarifying guidance to determine whether enforcement actions (such as seizure of
       property) should be considered an “interview” for the purposes of I.R.C. §§ 7521(b)(2)
       and (c).
In response to our second recommendation, the IRS assigned group managers responsibility for
monitoring employee compliance with the direct contact provisions. The group managers were
required to address this issue during group meetings, case reviews, on-the-job visits, and
taxpayer/representative inquires to ensure employees fully comply with the law.




                                                                                            Page 2
                       Fiscal Year 2007 Statutory Review of Restrictions on
                                  Directly Contacting Taxpayers



The Internal Revenue Service Has Informed Taxpayers of Their Rights
Through Various Internal Revenue Service Publications
The IRS uses Publication 1 as the main document to keep taxpayers informed of their rights and
to explain the examination, collection, appeals, and refund processes. Taxpayers are provided a
copy of Publication 1 prior to the scheduled interview with the IRS. Prior to December 1998,
taxpayer rights during IRS interviews were not specifically mentioned in Publication 1. The
RRA 98 required the IRS to revise Publication 1 to include information concerning taxpayers’
rights to be represented at interviews with the IRS and to suspend an interview pursuant to
I.R.C. § 7521(b)(2). The IRS has also included information on these rights in other publications.
As a result, taxpayers may be better informed of their rights during interviews through the
expanded avenues made available by the IRS. These other publications include:
   •   Your Federal Income Tax (Publication 17).
   •   Tax Guide for Small Business (Publication 334).
   •   Examination of Returns, Appeal Rights, and Claims for Refund (Publication 556).
   •   The Examination Process (Publication 3498).

Compliance With Statutory Requirements for Restrictions on Directly
Contacting Taxpayers Cannot Be Determined
We could not determine whether IRS employees followed proper procedures to stop an interview
if the taxpayer requested to consult with a representative. Neither the IRS nor we could readily
identify cases in which the taxpayer requested a representative or the IRS improperly bypassed
the representative.
Current IRS management information systems do not separately record or monitor cases in
which taxpayers had requested to consult with a representative or in which IRS employees
bypassed taxpayer representatives and contacted the taxpayers directly. There is no legal
requirement for the IRS to record or monitor cases involving these two procedures.
One way to identify possible violations of these taxpayer rights is to determine if taxpayers have
complained that an IRS employee intentionally denied them their right to representation or
bypassed representatives without proper approval. Taxpayer complaints that allege IRS
employees bypassed their representatives and contacted them directly are tracked by the TIGTA
Office of Investigations. The TIGTA Office of Investigations closed seven direct contact
complaint cases, involving six IRS employees, between October 2005 and September 2006. In
all seven cases, the Office of Investigations determined the facts did not support the opening of a
criminal investigation for any violation of the law.


                                                                                            Page 3
                      Fiscal Year 2007 Statutory Review of Restrictions on
                                 Directly Contacting Taxpayers



This is the ninth year in which we have reported our inability to give an opinion on the IRS’
compliance with the I.R.C. restrictions on direct contact. Although the IRS does not
systemically monitor its employees’ compliance with the direct contact provisions, we believe
the procedures and guidelines it has established and enhanced over the years adequately address
the requirements of the law. We do not recommend the creation of a separate tracking system
and are making no recommendations in this report.




                                                                                         Page 4
                          Fiscal Year 2007 Statutory Review of Restrictions on
                                     Directly Contacting Taxpayers



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with legal
guidelines addressing the direct contact of taxpayers and their representatives as set forth in
I.R.C. §§ 7521(b)(2) and (c). To accomplish this objective, we:
I.      Obtained confirmation from the Small Business/Self-Employed and Wage and
        Investment Divisions that the IRS neither has, nor plans to implement, a system or
        process to identify or track cases in which taxpayers have requested to consult with a
        representative or in which an IRS employee bypassed a representative.
II.     Interviewed various IRS and TIGTA personnel responsible for the Taxpayer Advocate
        Management Information System,1 the Information Tracking System,2 and the
        Performance and Results Information System 3 to determine if there is a system to track
        taxpayer complaints relating to violations of the direct contact provisions of the law.
        A. Identified seven direct contact cases (seven complaints) on the Performance and
           Results Information System closed by the TIGTA Office of Investigations during the
           period October 19, 2005, through September 30, 2006.
        B. Obtained and reviewed the closed TIGTA Office of Investigations case files to
           determine their validity and what actions were taken by the IRS as a result of the
           complaints and investigations.
III.    Obtained information on the actions taken by the IRS in response to
        I.R.C. §§ 7521(b)(2) and (c) to determine the impact on IRS programs.
        A. Reviewed all prior TIGTA audit reports for the Mandatory Direct Contact reviews
           and summarized the audit results, recommendations, and corrective actions taken by
           the IRS.
        B. Reviewed historic and current Internal Revenue Manual sections to identify any
           updates made in response to I.R.C. §§ 7521(b)(2) and (c).


1
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service employees.
2
  The Information Tracking System is an application used by the IRS to assign, control, and track information and
correspondence. It replaced the Executive Control Management System.
3
  The Performance and Results Information System is a management information system that provides the TIGTA
with the ability to manage and account for the thousands of complaints received and investigations initiated
annually.
                                                                                                           Page 5
               Fiscal Year 2007 Statutory Review of Restrictions on
                          Directly Contacting Taxpayers



C. Reviewed IRS.gov (the public IRS Internet site) and related IRS publications to
   identify how the IRS informs taxpayers of its prohibition against directly contacting
   taxpayers in certain situations.




                                                                                   Page 6
                     Fiscal Year 2007 Statutory Review of Restrictions on
                                Directly Contacting Taxpayers



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Acting Director
Alan Lund, Acting Audit Manager
David Hartman, Lead Auditor
Andrea McDuffie, Auditor




                                                                                    Page 7
                     Fiscal Year 2007 Statutory Review of Restrictions on
                                Directly Contacting Taxpayers



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
National Taxpayer Advocate TA
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Director, Communications and Liaison, National Taxpayer Advocate TA:CCL
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                      Page 8
